           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     UNIVERSITIES’ USE OF SOCIAL
    SECURITY NUMBERS AS STUDENT
      IDENTIFIERS IN REGION VIII

    March 2005     A-04-05-15039




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        SOCIAL SECURITY

MEMORANDUM


Date:   March 21, 2005                                                            Refer To:

To:     James C. Everett
        Regional Commissioner
         Denver

From:   Inspector General

Subject: Universities’ Use of Social Security Numbers as Student Identifiers in Region VIII
        (A-04-05-15039)


        OBJECTIVE
        Our objective was to assess universities’ use of Social Security numbers (SSN) as
        student identifiers and the potential risks associated with such use.

        BACKGROUND
        Millions of students enroll in educational institutions each year. To assist in this
        process, many colleges and universities use students’ SSNs as personal identifiers.
        The American Association of Collegiate Registrars and Admissions Officers found that
        half of member institutions that responded to a 2002 survey used SSNs as the primary
        student identifier.1 Although no single Federal law regulates overall use and disclosure
        of SSNs by colleges and universities, the Privacy Act of 1974, the Family Educational
        Rights and Privacy Act, and the Social Security Act contain provisions that govern the
        disclosure and use of SSNs. See Appendix A for more information on the specific
        provisions of these laws.

        POTENTIAL RISKS ASSOCIATED WITH COLLECTING AND USING SSNs

        While the schools we selected did not report any instances of identity theft or fraud,
        many universities’ collection and use of SSNs entail certain risks. Each time an
        individual divulges his or her SSN, the potential for a thief to illegitimately gain access to
        bank accounts, credit cards, driving records, tax and employment histories and other
        private information increases. We believe the following examples illustrate students’

        1
         Academic Transcripts and Records: Survey of Current Practices, April 2002 Special Report, the
        American Association of Collegiate Registrars and Admissions Officers.
Page 2 – James C. Everett


risk of exposure to such activity. Because many universities still use SSNs as the
primary identifier, students’ exposure to identity theft and fraud remains today.

•   A university professor in Washington was indicted on 33 counts of mail fraud in a
    scam using students’ SSNs. The professor allegedly accessed the university’s
    records system and used students’ information to obtain new SSN cards by posing
    as a parent. The professor then allegedly used the SSNs to obtain credit cards and
    birth certificates.

•   California authorities arrested a man suspected of stealing the names and SSNs of
    150 college students and using that information to obtain credit cards and charge
    more than $200,000 in the students’ names.

•   A student at a Texas university was accused of hacking into the school’s computer
    network and downloading the names and SSNs of more than 55,000 students,
    faculty, and alumni.

•   A gentleman discovered a computer printout in a trash bin near a Pennsylvania
    university listing SSNs and other personal data for hundreds of students.

SCOPE AND METHODOLOGY

We selected a sample of 12 educational institutions in Region VIII.2 For each selected
school, we interviewed university personnel and reviewed school policies and practices
for using SSNs. See Appendices B and C for additional details regarding the scope and
methodology of our review and a list of the universities we contacted, respectively.

RESULTS OF REVIEW
Based on our interviews with university personnel and reviews of school policies and
practices, we are concerned about universities’ use of SSNs as student identifiers. We
identified several instances in which universities used SSNs as the primary student
identifier or for other purposes, even when another identifier would suffice. However,
we are encouraged that officials from many of the universities we contacted shared our
concern and stated that their universities had taken, or were planning to take, steps to
reduce SSN use as the primary student identifier.




2
 Region VIII consists of the following six States: Colorado, Montana, North Dakota, South Dakota, Utah
and Wyoming.
Page 3 – James C. Everett


COLLEGES AND UNIVERSITIES CONTINUE TO USE THE SSN AS AN IDENTIFIER

Despite the increasing threat of identity theft, some colleges and universities continue to
use the SSN for several purposes, particularly as the primary student identifier. Our
visits to 6 colleges and universities and telephone interviews with 6 others revealed that
the SSN was used as the student identifier by 6 of the 12 universities we contacted in
Region VIII. The following table identifies some uses of the SSN at the universities and
colleges contacted and our related concerns.

                           SSN Use and Related Concerns
           SSN USE                                         CONCERN
Class Registration:               The paper registration process unduly discloses the SSN
At several institutions,          to university/college registrar employees throughout the
students must disclose their      process. The on-line registration process generally
SSNs to register for courses      results in electronic databases that identify students by
(on-line or paper form            SSN. Without strict application controls, individuals’
registration processes).          SSNs could be compromised.
Class Rosters:                    Listing SSNs on class rosters with students’ names
Class rosters at some             exposes the SSN to university employees. At a
universities and colleges         minimum, the practice makes SSNs available to
listed the students’ SSNs         instructors. If instructors do not adequately safeguard
and names.                        class rosters, students’ names and SSNs could be
                                  vulnerable to unauthorized access.
Computer Login:                   Students’ SSNs are susceptible to unauthorized
Students must enter their         disclosure during the log-in process. At one
SSNs to log into computers        university/college, the SSN was displayed on the
at several of the colleges        computer monitor during the log-in process. Computer
and universities.                 users accustomed to the process could visually obtain an
                                  SSN when a student logs on.
Class Grade Reports:              Listing SSNs and students’ names on class grade reports
Instructors at some of the        discloses the SSN to university/college employees. This
universities and colleges         weakens institutional control over the SSN.
reported final grades to the
registrar’s office by students’
SSNs.
Overdue Library Book              The paper record of overdue books containing student
Reports: At one                   names and SSNs increases SSN exposure to library staff
university/college, library       and other individuals in the work area. Additionally, the
staff maintained overdue          electronic database used to develop the overdue book
library book records that         record contained the students SSNs. Without strict
identified the delinquent         application controls the SSN could be electronically
student by name and SSN.          compromised.
Page 4 – James C. Everett


The institutions that continued to employ the SSN as a primary student identifier
recognized the risks associated with this practice and had adopted plans to issue a non-
SSN student identifier by the fall 2006 semester. This change will eliminate universities’
and colleges’ use of the SSN as a student identifier.

Some universities and colleges in Region VIII had already initiated actions to phase out
the SSN as a primary student identifier. For example, one university recently
redesigned its student information system with the capability to assign and use
non-SSN student identification numbers. With the redesigned system, the university
began issuing randomly generated student identification numbers to all new students
registering for the fall 2003 semester. Students enrolled before fall 2003 will be issued
a non-SSN student identifier system starting with the spring 2006 semester. The
Registrar stated that, although considerable costs were being incurred in transitioning to
non-SSN student identification numbers, university officials fully supported the change,
as they recognized the importance of protecting students’ personal identities.
Additionally, the Registrar stated the university was trying to increase awareness
regarding the need to protect the SSN along with other sensitive, personally identifiable
information.

All of the colleges and universities we contacted recognized the importance of
protecting students’ identities along with restricting the use of the SSN as a student
identifier. However, officials at several of these institutions cited funding limitations as a
hurdle in implementing changes to information systems that would enable the transition
to non-SSN student identification numbers. According to these officials, costly
enhancements to existing information systems or the implementation of a new student
information system is often necessary to support the replacement of the SSN as the
primary student identifier. Although funding issues were identified as a roadblock to
transitioning away from using the SSN as an identifier, institutions using the SSN as a
primary identifier are now prepared to incur the costs and accept the challenges
associated with assigning and managing non-SSN student identification numbers.

We did not identify instances in which students’ SSNs were misused at the colleges and
universities interviewed. However, we believe the potential for misuse is greater at
those universities that continue to use the SSN as the primary student identifier. We
are encouraged that colleges and universities using the SSN as the primary student
identifier have adopted plans to eliminate this practice and will only use it for financial
aid and tax purposes. The institutions we contacted acknowledged the risks of using
the SSN and will strive to limit SSN exposure.
Page 5 – James C. Everett


CONCLUSION AND RECOMMENDATIONS
Despite the potential risks associated with using SSNs as primary student identifiers,
some colleges and universities in Region VIII continued this practice. While we
recognize SSA cannot prohibit colleges and universities from using SSNs as student
identifiers, we believe SSA can help reduce potential threats to SSN integrity by
encouraging schools to limit SSN collection and use. We also recognize the challenge
of educating such a large number of educational institutions. However, given the
potential threats to SSN integrity, such a challenge should not discourage SSA from
taking steps to safeguard SSNs. Accordingly, we recommend that SSA:

1. Coordinate with colleges/universities and State/regional educational associations to
   educate the university community about the potential risks associated with using
   SSNs as student identifiers.

2. Encourage colleges and universities to limit their collection and use of SSNs.

3. Promote the best practices of educational institutions that no longer use SSNs as
   student identifiers.

AGENCY COMMENTS

SSA agreed with our recommendations. We believe SSA’s response and planned
actions adequately address our recommendations and will help strengthen SSN
integrity. The full text of SSA’s comments is included in Appendix D.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                         Appendices
APPENDIX A – Federal Laws that Govern Disclosure and Use of the Social Security
             Number

APPENDIX B – Scope and Methodology

APPENDIX C – Educational Institutions Contacted

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                                    Appendix A

Federal Laws that Govern Disclosure and Use
of the Social Security Number
The following Federal laws establish a general framework for disclosing and using the
Social Security number (SSN).

The Privacy Act of 1974 (5 U.S.C. § 552a; Pub. L. No. 93-579, §§ 7(a) and 7(b))

The Privacy Act of 1974 provides that it is unlawful for a State government agency to
deny any person a right, benefit, or privilege provided by law based on the individual’s
refusal to disclose his/her SSN, unless such disclosure was required to verify the
individual’s identity under a statute or regulation in effect before January 1, 1975.
Further, under Section 7(b), a State agency requesting that an individual disclose
his/her SSN must inform the individual whether the disclosure is voluntary or
mandatory, by what statutory or other authority the SSN is solicited, and what uses will
be made of the SSN.

The Family Educational Rights and Privacy Act (20 U.S.C. § 1232g; 34 C.F.R. Part 99)

The Family Educational Rights and Privacy Act (FERPA) protects the privacy of student
education records. FERPA applies to those schools that receive funds under an
applicable program of the U.S. Department of Education. Under FERPA, an
educational institution must have written permission from the parent or eligible student
to release any personally identifiable information (which includes SSNs) from a
student’s education record.1 FERPA does, however, provide certain exceptions in
which a school is allowed to disclose records without consent. These exceptions
include disclosure without consent to university personnel internally who have a
legitimate educational interest in the information, to officials of institutions where the
student is seeking to enroll/transfer, to parties to whom the student is applying for
financial aid, to the parent of a dependent student, to appropriate parties in compliance
with a judicial order or lawfully issued subpoena, or to health care providers in the event
of a health or safety emergency.




1
  FERPA gives parents certain rights with respect to their children’s education records. These rights
transfer to the child when the child reaches the age of 18 or attends an institution of postsecondary
education. Children that have been transferred rights are referred to as “eligible students.”


                                                   A-1
The Social Security Act

The Social Security Act provides that “Social Security account numbers and related
records that are obtained or maintained by authorized persons pursuant to any
provision of law, enacted on or after October 1, 1990, shall be confidential, and that no
authorized person shall disclose any such Social Security account number or related
record.” (42 U.S.C. §405(c)(2)(C)(viii)). The Social Security Act also provides that
“[w]hoever discloses, uses, or compels the disclosure of the Social Security number of
any person in violation of the laws of the United States; shall be guilty of a felony…” (42
U.S.C. §408(a)(8)).




                                            A-2
                                                                        Appendix B

Scope and Methodology
To accomplish our objective, we

•   interviewed selected university personnel responsible for student
    admissions/registrations;

•   reviewed Internet websites of the 12 colleges and universities we contacted;

•   reviewed applicable laws and regulations; and

•   reviewed selected studies, articles and reports regarding universities’ use of Social
    Security numbers (SSN) as student identifiers.

We visited six educational institutions and interviewed personnel at six others to learn
more about their policies and practices for using SSNs as student identifiers. Our
review of internal controls was limited to gaining an understanding of universities’
policies over the collection, protection and use/disclosure of SSNs. The Social Security
Administration entity reviewed was the Office of the Deputy Commissioner for
Operations. We conducted our audit from June through September 2004 in accordance
with generally accepted government auditing standards.
                                                                                 Appendix C

Educational Institutions Contacted
We interviewed personnel at 12 educational institutions in Region VIII. The following
table shows the names and locations of these schools as well as their total student
enrollments.


                           School                            Location                  Student
                                                                                      Enrollment

    1      Augustana College                        Sioux Falls, South Dakota            1,812

    2      College of Eastern Utah                  Price, Utah                          1,924

    3      Dawson Community College                 Glendive, Montana                     389

    4      Jamestown College                        Jamestown, North Dakota              1,137

    5      Laramie County Community College         Cheyenne, Wyoming                    2,800

    6      South Dakota State University            Brookings, South Dakota              9,690

    7      University of Colorado, Boulder          Boulder, Colorado                    30,767

    8      University of Denver                     Denver, Colorado                     8,295

    9      University of Montana, Missoula          Missoula, Montana                    13,032

   10      University of North Dakota               Grand Forks, North Dakota            12,605

   11      University of Wyoming                    Laramie, Wyoming                     12,231

   12      Utah State University                    Logan, Utah                          16,318

Source: We determined student enrollment by reviewing university websites or one of the following
websites: www.collegeboard.com/splash or www.uscollegesearch.org.
                                                                     Appendix D

Agency Comments

Wednesday, March 02, 2005

Thank you for the opportunity to review the draft OIG report on the use of Social
Security Numbers (SSN) as student identifiers by universities. This report was well
written and provided valuable information to us.

We agree with all three recommendations made regarding the need for outreach to the
universities and colleges to promote limiting the use of the SSN. Some of our
managers are already working with their local colleges to establish a new procedure.
Recommendations 1 and 2 could be considered one step – working with the local
contacts to understand the risks associated with using the SSN and encourage them to
limit the collection and use of SSNs.

We believe these recommendations are worthwhile. We consider this an ongoing
project as contacts are made with the colleges by our managers or Public Affairs
Specialists. Also, we encourage these recommendations be made at a national level, as
this is a national problem. Several of these actions can be implemented nationally to
benefit everyone.

If your staff has any questions regarding these comments, they can contact Debbie
Sweeney, RSI Programs Branch, at (303) 844-5719.


James C. Everett
Regional Commissioner
Denver
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Frank Nagy, Deputy Director, (404) 562-5552

Acknowledgments

In addition to those named above:

   Phillip Krieger, Auditor-in-Charge

   Kimberly Beauchamp, Writer/Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-04-05-15039.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
